<html>
<title> - PRIORITIZING MANAGEMENT: IMPLEMENTING CHIEF MANAGEMENT OFFICERS AT FEDERAL AGENCIES</title>
<body><pre>[Senate Hearing 110-421]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-421
 
                 PRIORITIZING MANAGEMENT: IMPLEMENTING
                      CHIEF MANAGEMENT OFFICERS AT
                            FEDERAL AGENCIES

=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                     THE FEDERAL WORKFORCE, AND THE
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 13, 2007

                               __________

        Available via http://www.access.gpo.gov/congress/senate

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs


                     U.S. GOVERNMENT PRINTING OFFICE
40-509 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 GEORGE V. VOINOVICH, Ohio
THOMAS R. CARPER, Delaware           TED STEVENS, Alaska
MARK L. PRYOR, Arkansas              TOM COBURN, Oklahoma
MARY L. LANDRIEU, Louisiana          JOHN WARNER, Virginia

                   Richard J. Kessler, Staff Director
               Thomas Richards, Professional Staff Member
             Jennifer A. Hemingway, Minority Staff Director
           Theresa Prych, Minority Professional Staff Member
                      Emily Marthaler, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Akaka................................................     1
    Senator Voinovich............................................     3

                               WITNESSES
                      Thursday, December 13, 2007

Hon. Clay Johnson III, Deputy Director for Management, Office of 
  Management and Budget..........................................     4
Hon. David M. Walker, Comptroller General of the United States...     6
Paul A. Brinkley, Deputy Under Secretary of Defense, Business 
  Transformatin, U.S. Department of Defense......................     9

                     Alphabetical List of Witnesses

Brinkley, Paul A.:
    Testimony....................................................     9
    Prepared statement...........................................    43
Johnson, Hon. Clay III:
    Testimony....................................................     4
    Prepared statement...........................................    23
Walker, Hon. David M.:
    Testimony....................................................     6
    Prepared statement...........................................    25

                                APPENDIX

Background.......................................................    52
GAO Report entitled ``Organizational Transformation, Implementing 
  Chief Operating Officer/Chief Management Officer Positions in 
  Federal Agencies,'' GAO-08-34, November 2007...................    58


                 PRIORITIZING MANAGEMENT: IMPLEMENTING
                      CHIEF MANAGEMENT OFFICERS AT
                            FEDERAL AGENCIES

                              ----------                              


                      THURSDAY, DECEMBER 13, 2007

                                   U.S. Senate,    
                Subcommittee on Oversight of Government    
                       Management, the Federal Workforce,  
                              and the District of Columbia,
                            of the Committee on Homeland Security  
                                          and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:17 a.m., in 
Room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee, presiding.
    Present: Senators Akaka and Voinovich.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. This hearing will come to order.
    Good morning, everyone. I would like to welcome our 
distinguished witnesses to this hearing on establishing a Chief 
Management Officer at Federal agencies to address human 
capital, business transformation, financial management, and 
strategic planning challenges across the Federal Government.
    Senator Voinovich and I have been working with agencies for 
years, and we have been working well together. He has been a 
champion, too, of human capital, and we are still trying to 
work some things out--and, of course, all of this with the hope 
that we can make things better for our country.
    We have been working together for years to resolve 
management challenges and encourage agency leaders to 
prioritize management. Hearing after hearing has shown that 
strong agency leadership that places a priority on management 
results in improved agency performance.
    An agency's main focus must be its mission. However, 
agencies tend to overlook the importance of strong and 
sustained management in their operational goals. As a result, 
agencies often fail to meet their mission in the most efficient 
and effective way.
    Using the ongoing war in Iraq as an example, it is clear 
that strong leadership and efficient management are essential 
to supporting the war fighter. We also need strong leadership 
and efficient management throughout the Federal Government to 
support the critical efforts of agencies to meet their 
missions.
    I believe that a CMO, a high-level official in charge of a 
department or agency's business operations, can help improve 
overall effectiveness and enable the agency to better meet its 
mission. This would not complicate the existing bureaucracy; 
rather, I believe that elevating the issues of strategic 
planning, human capital, and business transformation to a 
higher level will provide management issues the priority they 
deserve, and this has become clear. In the past, people who 
have sought to assume that position at a lower level have not 
been able to make any difference.
    Last year, our Subcommittee asked the Government 
Accountability Office to evaluate how CMOs have been 
established in the public and private sector and to develop 
criteria and strategies for establishing CMOs across the 
Federal Government. As we will hear from the Comptroller 
General, establishing a CMO and providing them with the 
necessary authority can improve the efficiency and 
effectiveness of any organization, especially large, complex 
departments.
    On September 18, 2007, Secretary of Defense Robert Gates 
designated Deputy Secretary for Defense Gordon England as the 
Chief Management Officer at the Department of Defense. I 
believe Secretary England is a strong leader and a good choice 
to serve as CMO. Also, I am pleased to see the Department 
elevate the importance of management to the deputy level. I 
look forward to seeing the progress made at DOD to improve its 
business operations.
    However, in a little more than a year, the Federal 
Government will face a Presidential transition, and Secretary 
Gates and Secretary England likely will leave their posts. We 
need to ensure that their management efforts do not disappear 
by making management part of the institutional framework at the 
Defense Department and other Federal agencies. Structures need 
to be developed that will stay in place from one Administration 
to the next. GAO recommends that the establishment of a CMO at 
Federal agencies be codified. I agree. Earlier this year, the 
President signed into law a provision to create a CMO at the 
Department of Homeland Security as part of the 9/11 Commission 
Recommendations bill. There is also a provision to codify a CMO 
and Deputy CMO at the Department of Defense included in the 
fiscal year 2008 defense authorization conference report.
    But these are just first steps in a long process of 
improving management accountability at agencies.
    The continuity of management and business operations is 
also critical. A CMO could be that link between 
Administrations. One of GAO's recommendations is to have a 5- 
to 7-year term appointment so that management can remain a 
constant high-level focus of an agency outside the political 
process. I think this is an idea that we need to explore very 
seriously.
    GAO examined the impact, both positive and negative, that 
codifying such a position would have on the management of 
departments. I believe that GAO's recommendations provide sound 
criteria for agencies to begin establishing CMOs. I look 
forward to hearing from our witnesses on how they see the 
establishment of CMOs as part of the overall management 
strategy for the government.
    And now I would like to call on our Ranking Member for his 
statement. Senator Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Mr. Chairman.
    One of the things that I think the public does not 
comprehend when they see Democrats and Republicans in the 
Senate and it does not seem like they are able to get along 
with each other, is that there are some really wonderful things 
that are happening in the various committees of the U.S. 
Senate. I have been blessed with the partnership of Senator 
Akaka. We work together on an agenda and we are staying with 
some of the themes that we have been working on for years 
because we realized that if you do not continue to oversee 
them, you are not going to get the progress that you would like 
to get.
    I would like to thank David Walker for all of the 
cooperation and help that he has given to us this year; and 
Clay Johnson, who I think has done an outstanding job. Clay 
Johnson, when I came here, I said there was no ``M'' in OMB. 
You have brought ``M'' back to OMB. I think the fact that even 
though there may be differences of opinion on occasion between 
GAO and OMB, the two of you working together, particularly on 
strategic plans to remedy some of the management problems in 
our Federal Government. So I just want you to know how much I 
admire you and appreciate your service and what you have done 
and continue to do for our country.
    Mr. Brinkley, I know that our friend Gordon England would 
be here today, but he is overseas. We are pleased that you are 
here because you are the person that is really on the firing 
line in terms of transformation, and we are looking forward to 
hearing from you today.
    I think it is through strong partnerships, whether between 
Senator Akaka and myself or between the Executive and 
Legislative Branches, that we really achieve reform and 
transformation of the Federal Government for the benefit of the 
American people. And, again, a lot of the stuff that we do does 
not happen in these hearings. It is in meetings with you 
individually and our offices. In fact, sometimes, Senator 
Akaka, I would say that the meetings in the offices are better 
than the hearings. And I suspect maybe you feel the same way 
about that, too.
    Having focused intently the last few years on CMOs at the 
Department of Defense and at Homeland Security, Senator Akaka 
and I have asked General Walker to look at these positions. We 
focused on DOD and DHS because the management challenges of 
these large agencies are daunting. I think I have mentioned to 
Clay Johnson on occasion that if we went back and looked at the 
creation of DHS, mergin 22 agencies with over 200,000 people, 
on reflection that may not have been the best thing that we 
could have done at the time. And it has presented some unique 
management challenges, because of trying to bring these 
departments together and to create a different culture. It has 
been tough.
    I think it is well known that the Department of Defense has 
had challenges on the high-risk list for a long time--eight 
specific to the Department, and then six government-wide. The 
public expects us to work harder and smarter and do more with 
less.
    There is no question in my mind that we really have some 
challenges in both the Department of Homeland Security and 
Defense. How well they function has a great deal to do with our 
main responsibility, securing our national and homeland 
defense.
    I would like to say that I applaud Secretary Gates for 
taking the steps to name a Chief Management Officer, the 
designation of the existing Deputy Secretary. But I do not 
think it gets the job done. I think if you really look at the 
responsibilities of the Deputy Secretary, it is not going to 
get the attention that it needs, particularly in an agency as 
vital to this country as the Defense Department.
    Senator Akaka. Thank you very much, Senator Voinovich.
    I want to echo what the Senator has just said in gratitude 
to our witnesses, Paul Brinkley, Clay Johnson, and Comptroller 
General Walker, for the years that you have been here, your 
expertise, your experiences, and how you have helped us to try 
to think about what we are trying to do to improve the 
accountability and management of our systems. And so I, too, am 
very appreciative of that, I want you to know. It is good to 
have Mr. Brinkley here and joining our efforts with the 
Department of Defense in this.
    Let me then mention and introduce our witnesses this 
morning: Clay Johnson, Deputy Director for Management, White 
House Office of Management and Budget; David Walker, 
Comptroller General, Government Accountability Office; and Paul 
Brinkley, Deputy Under Secretary for Defense, Business 
Transformation, Department of Defense.
    As the three of you know, our rules require that all 
witnesses testify under oath, so would you please rise and 
raise your right hand. Do you solemnly swear that the testimony 
you are about to give the Subcommittee is the truth, the whole 
truth, and nothing but the truth, so help you, God?
    Mr. Johnson. I do.
    Mr. Walker. I do.
    Mr. Brinkley. I do.
    Senator Akaka. Thank you very much. Let it be noted in the 
record that the witnesses answered in the affirmative.
    Welcome again, and before we begin, I want you all to know 
that although your oral statements are limited to 5 minutes, 
your full written statements will be included in the record. 
So, Mr. Johnson, will you please proceed with your statement?

  TESTIMONY OF HON. CLAY JOHNSON III,\1\ DEPUTY DIRECTOR FOR 
          MANAGEMENT, OFFICE OF MANAGEMENT AND BUDGET

    Mr. Johnson. Senator Akaka, Senator Voinovich, thank you 
for having us.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Johnson appears in the Appendix 
on page 23.
---------------------------------------------------------------------------
    I would like to say that my whole job is focused on helping 
the Federal Government spend the taxpayers' money effectively 
and better every year. The Executive Branch needs to do more 
towards this goal, as well as the Legislative Branch.
    We just issued Executive Order 13450 calling for this, 
declaring it to be the policy of the Federal Government, and 
calling for the head of the agency to set up certain functions 
within the agency to make this happen. This is something we 
need to make sure that your staff understands because it might 
have some bearing and provoke some thinking about how to help 
all agencies become more effective. And we would be glad to 
share with you what the concept is and how we are going to go 
about implementing this.
    Let me be very clear. I do not believe that any agency, 
including DOD, needs a second Deputy to help it perform better. 
Let me add also that the majority of the participants in the 
forum on this subject that Mr. Walker and GAO held last spring 
felt the same way. There were present and past Deputy 
Secretaries of Defense. There were other management luminaries 
from the area. And the majority, a significant majority of the 
people felt like a second Deputy was not a good idea.
    I believe that the thing that needs to happen for DOD or 
any agency to get something done is the following four things:
    They need to have a very clear definition of what they are 
trying to accomplish. What is the definition of ``success'' for 
supply chain management at Defense, for financial management, 
for acquisition management? What is the plan for accomplishing 
it? What is a reasonably aggressive plan? What is the time 
frame for that? And, by the way, all of this needs to be agreed 
to by GAO, DOD, and the relevant people at OMB. So clear goals, 
a clear plan for getting there. It needs to be clearly defined 
who is accountable for each of the component parts of that 
plan. And then it needs to be really clear to everybody 
involved that this is important, that the head person, the 
Secretary, the President for that matter, and Congress really 
wants this to happen. Those four things.
    I do not believe that DOD needs a second Deputy to make 
these things happen. In fact, let me point out two facts that I 
think are relevant to this.
    Currently, without a second Deputy, DOD--Paul and Beth 
McGrath, and the Transformation Office--working with GAO, 
working with OMB, has developed acceptable--or is developing 
acceptable goals of definitions of success. What does supply 
chain management mean at DOD? What does good financial 
management mean at DOD?
    So they, without a second Deputy, have clear goals. They 
have developed clear action plans for accomplishing those goals 
in an appropriately aggressive time frame.
    They have defined who is accountable for accomplishing each 
of the component parts, not the Army, not this office, but Joe, 
Mary, whatever.
    And the Secretary has made it clear that this is important. 
So without a second Deputy, they have done, I think they are in 
the process or are accomplishing the four things that I say 
have to exist.
    The key--and I have expressed this to Gordon England--is 
how aggressively he holds the people involved accountable for 
doing what they say they are going to do, for implementing the 
plan as desired.
    The key in my mind, in terms of accountability, is how 
accountable are the career managers held. Right now, SES, the 
Senior Executive professionals at DOD and at all agencies, are 
help accountable. They are required to be held accountable and 
evaluated on the performance of their programs per the--I 
forgot what the name of the bill was called, but you all were 
instrumental in passing that legislation 5 years ago, 4 years 
ago or so.
    So there are mechanisms, there is legislation that says SES 
are to be evaluated on the performance of their programs. So 
the mechanisms exist, and it is now for the head of the 
agency--and if an additional support staff is required to make 
this happen, to help him or her do that, so be it. But this is 
happening at DOD. There are clear definitions of what they are 
trying to accomplish. There are clear plans for doing it. There 
is clear accountability, and it has been made clear to 
everybody that this is important, without a second Deputy. Now 
they have to do what they say they are going to do.
    The second relevant fact to this debate, to this hearing, 
is that all the termed positions that are referenced in GAO's 
analysis are the heads of separate operating units. None of the 
positions that are termed--that are talked about in the 
analysis are involved in operational transformation across the 
board at an agency. So there is no precedent today in the 
Federal Government for what is embodied in the concept of a 
second Deputy at Defense focusing on how well the Defense 
Department is managed. And that to me should speak volumes. 
There might be a reason for that, which is over time people 
have not felt that was the way to go. DOD, every agency, 
Homeland Security, Interior Department, Labor Department, need 
to be held accountable for how effectively they spend the 
taxpayers' money. We can hold--Congress can do a better job of 
holding them accountable. Senior management--the President can 
do a better job of holding senior management of every agency 
accountable. We do not need a second Deputy, in my opinion, to 
make that happen.
    Thank you, and I look forward to your questions at the end 
of everybody's statements.
    Senator Akaka. Thank you very much, Mr. Johnson. Mr. 
Walker.

 TESTIMONY OF HON. DAVID M. WALKER,\1\ COMPTROLLER GENERAL OF 
                       THE UNITED STATES

    Mr. Walker. Thank you, Chairman Akaka and Senator 
Voinovich. It is a pleasure to be back before you.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Walker appears in the Appendix on 
page 25.
---------------------------------------------------------------------------
    Clay Johnson is a good friend, and we work together very 
constructively on 95 percent of the issues. And even areas 
where we disagree, we are not disagreeable when we do that. But 
I have to correct for the record a couple of things that Clay 
Johnson just said.
    One, two of the positions in the summary are Chief 
Operating Officer positions. They are not heads of separate 
business units.
    Two, the government is a lag indicator. The Federal 
Government is no model to be followed for economy, efficiency, 
effectiveness, ethics, and equity. And the mere fact that we do 
not have these positions now is part of the problem. We need to 
resolve that problem.
    Three, we did not take a vote at the forum on whether or 
not a majority of the people supported a second Deputy or not. 
There was a significant majority who supported the need for a 
CMO, but there is a different issue as to how you accomplish 
that, whether you designate an existing person or you create a 
new position, what you call that new position, what level that 
position is.
    So I just wanted to state that. Now, let me, if I can, 
summarize the key information that is in the report.
    We have released a report today that talks about the 
experiences of several organizations that have COOs and CMOs at 
the request of this Subcommittee in order to try to analyze 
different attributes associated with those positions.\1\ I 
believe very strongly that the Federal Government--not only 
because of existing high-risk areas but because of our clear, 
growing, and imprudent unsustainable fiscal path--needs to do 
things differently. We need to think about what the government 
ought to be doing, how it ought to be doing it, and who ought 
to be doing it. And we need to manage this government very 
differently than we have.
---------------------------------------------------------------------------
    \1\ GAO Report entitled ``Organizational Transformation, 
Implementing Chief Operating Officer/Chief Management Officer Positions 
in Federal Agencies,'' GAO-08-34, November 2007 appears in the Appendix 
on page 58.
---------------------------------------------------------------------------
    The simple fact of the matter is that a vast majority of 
people who come into government do so to focus on policy 
issues, not operational issues. The fact of the matter is that 
the vast majority of people who come into government do not 
stay in government very long. And the fact of the matter is 
that a vast majority of the challenges that this government 
faces are basic management and operational issues that require 
professionals who can focus on it in a sustained manner, both 
within and in some circumstances between Administrations, 
because it will take years to be able to effectively address.
    Just yesterday morning, I spent time with one of the key 
executives at IBM who was in charge for IBM's business 
transformation effort in the systems area. Phase 1 took 10 
years. Let me restate that. Phase 1 of IBM's systems and other 
transformation efforts took 10 years. Now they are working on 
Phase 2, which started in 2003. So even in the private sector, 
you are talking about initiatives that are extremely complex 
and take a long time.
    In addition to the work that we did that is summarized in 
our report, we held a roundtable in 2002 to talk about the COO 
and CMO concept, and there were several key points that came 
out of that. There was a need to elevate attention on 
management issues and transformational change. There was a need 
to integrate various key management and transformation efforts. 
And there was a need to institutionalize accountability for 
addressing management issues and leading transformational 
change in government.
    Now, let me say I think every agency needs a CMO, but I 
think in most cases that CMO could be the Deputy Secretary or 
the Deputy Administrator, and so we are talking about looking 
at this issue on a facts and circumstances basis, applying 
those facts and circumstances in reaching different judgments 
about whether or not it is an existing position or person or a 
new one and what level it ought to be.
    Because each agency has its own unique set of 
characteristics and challenges and opportunities, the type of 
COO or CMO that each agency needs, I think, should vary, and 
here there are various criteria that I think should be 
considered:
    First, the history of organizational performance, including 
the number of high-risk areas.
    Second, the degree of organizational change needed.
    Third, the nature and complexity of the agency's or 
department's mission.
    Fourth, the organization's size and structure of the 
entity.
    And, fifth, the current leadership, talent, and focus, 
among other things.
    We also identified six key strategies that can be useful in 
implementing COO and CMO positions in the Federal Government, 
and those are: (1) to define the specific roles and 
responsibilities of the position; (2) to ensure that the 
position has a high level of authority and clearly delineated 
reporting relationships; (3) to foster good executive-level 
working relationships for maximum effectiveness; (4) to 
establish integration and transformation structures and 
processes in addition to merely having a COO or CMO; (5) to 
promote individual accountability and performance through 
specific job qualification requirements and effective 
performance management techniques, including performance 
contracts as appropriate; and (6) to provide for continuity of 
leadership in the COO and CMO position.
    Now, let me touch for a minute--if I may, Mr. Chairman, and 
I appreciate your indulgence--on DOD. Gordon England is one of 
the most capable executives I have ever met. This is not an 
issue of Gordon England. The problem is many of the debates 
have been focused on an individual. This is not about an 
individual. This is about an institution--the Department of 
Defense.
    We have no guarantees as to what type of individual the 
next Deputy Secretary of Defense will be. I am not going to 
mention any names, but there were a number of Deputy 
Secretaries of Defense over the past 20 years or 30 years that 
clearly were not CMOs and could not be CMOs and, quite frankly, 
did not give a hoot about business issues and transformation 
issues. We are talking about a serious challenge that faces 
this government, in particular DOD, DHS, and the intelligence 
community, and we need to start taking it seriously.
    A lot of people that have opinions on this, quite frankly, 
have a fundamental conflict of interest. That fundamental 
conflict of interest needs to be considered. I think it is 
unfortunate that this Administration has not looked at this as 
an opportunity to institutionalize and to perpetuate the many 
good management initiatives that it has undertaken. And I agree 
with that, this Administration has taken management seriously, 
and I want to compliment Clay Johnson and his colleagues on 
this. These represent opportunities to institutionalize and to 
perpetuate it, because let me tell you what is going to happen. 
A lot of these key management transformation positions are not 
going to get filled right away in the next Administration, 
whoever it is. We are going to lose momentum. And we do not 
know what kind of people are going to fill them. And I think it 
is incumbent upon not just the Executive Branch but the 
Legislative Branch to think about what can be done to maximize 
the chance that we can do things differently to improve 
performance, to assure accountability, and to discontinue 
billions and billions and billions of dollars of waste that 
occurs every year just within the Defense Department alone. 
That is of critical importance, and it increases with the 
passage of time.
    And so I am more than happy to answer any questions that 
you might have. These are one of the few areas where we have a 
strong disagreement, but you know what they say, Mr. Chairman. 
It takes patience, persistence, and perseverance, and 
ultimately pain, before you prevail. Prevail we must. Thank 
you, Mr. Chairman.
    Senator Akaka. Thank you very much, Mr. Walker. Mr. 
Brinkley, your statement, please.

  TESTIMONY OF PAUL A. BRINKLEY,\1\ DEPUTY UNDER SECRETARY OF 
  DEFENSE, BUSINESS TRANSFORMATION, U.S. DEPARTMENT OF DEFENSE

    Mr. Brinkley. Yes, Chairman Akaka and Senator Voinovich, it 
is obviously an honor to be here today. I thank you for the 
time and the opportunity to speak to you regarding our efforts.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Brinkley appears in the Appendix 
on page 43.
---------------------------------------------------------------------------
    I also want to acknowledge the honor to share the desk here 
with Mr. Walker and Mr. Johnson, whose passion you have already 
heard this morning for the subject matter. I benefit from that 
passion with great regularity in my private meetings with these 
individuals. They make their concern and their patriotic 
concern for the management of certainly the Department of 
Defense (DOD) clear to me with great clarity.
    I want to respond in my remarks to some of the things that 
have already been said so that we do not recap and perhaps buy 
back a little bit of time.
    The DOD and its mission, as you mentioned in your opening 
comments, has a primary objective to support our war fighters. 
Having spent a significant amount of time over the past 2 years 
in theater with our war fighters, I have seen firsthand where 
this really counts, making our business processes as nimble and 
agile as the business processes we as citizens now take for 
granted in our everyday lives but we do not see taking hold in 
government. An Information Age that has caused technology to 
evolve at a pace that is remarkable, government's ability to 
move as quickly as change is taking place in the private world 
is absolutely critical. The enemies we face take advantage of 
Information Age technology every day. Our ability to adopt it, 
our ability to be nimble and agile in our business practices, 
has a very significant and immediate effect on national 
security. No one feels that more passionately than we do within 
the Department of Defense.
    I want to point out that over the past 2 years, sometimes 
this feels like we are moving to address these issues, and as 
Mr. Walker stated, he cited the IBM example. It took 10 years 
to transform IBM. If you asked someone from IBM, they will tell 
you that did not stop. They are still continuing to evolve 
every day. General Electric and other bellweather corporations 
that we admire as Americans, it takes years and years to 
transform into a modern entity. In the Department, the team 
that we have assembled in the Business Transformation Office, 
which was established at the beginning of 2005, we have worked 
diligently to put processes in place that create that same kind 
of concept and culture of continuous improvement, incremental 
progress so that when we report to Congress, it is not about a 
great thing that is going to happen 5 years hence, but that 
there has been measurable, steady, incremental improvement. 
This is the way this works in industry. We have to find a way 
to embed that type of thinking in government.
    We have established, over the past 2 years, governance 
structures. Deputy Secretary England has been acting as the 
Chief Management Officer since he came. It was a very natural 
role for him to play within the Department, given his executive 
leadership roles in private industry. The established 
governance structures. The Defense Business Systems Management 
Committee, which was actually codified in the National Defense 
Authorization Act (NDAA), I believe, in 2005, has become a 
foundation of our management process within the Department of 
Defense.
    We have established in less than 2 years the Business 
Transformation Agency, a new entity that sits at the top of the 
Department to bring in world-class talent from outside and meld 
it with world-class talent from inside government, with 
expertise in business practices and systems to help accelerate 
the pace at which we can change longstanding ways of doing 
things in a government, and in an entity within government that 
has 200 years of proud history of delivering security to the 
people of the United States. Change is difficult when processes 
have been embedded for a long time. When those processes are 
embedded in an organization that has a proud successful 
history, change is even more difficult.
    So I cannot overstate that there are significant steps that 
have been taken in the past 2 years. Establishing a new Federal 
entity is not an easy thing to do. We have done that. It has 
delivered value. Programs that used to be poster children for 
difficulty, programs like the Defense Integrated Management of 
Human Resources System--DIMHRS--the Defense Travel System, 
these are programs that used to be front and center for 
hearings on why the Department cannot do things well. They are 
now becoming showcases for how the Department can do things 
well.
    We have melded non-system-related work, business process 
improvements, Lean Six Sigma, into the Business Transformation 
Office and the Business Transformation Agency--again, with 
Deputy Secretary England's leadership. This is now driving 
process change, continuous incremental improvement.
    We deliver to the Congress an Enterprise Transition Plan. 
We do that every 6 months. We deliver an update with 6-month 
incremental, measurable objectives. We have hit on average 83 
percent--over 80 percent of those objectives for the past 2 
years. That is significant forward progress in our efforts. Our 
goal is to have that sustained.
    We believe we have taken steps to make this sustainable. 
The Business Transformation Agency is led by a career Senior 
Executive Service (SES) recruited to take on that job and carry 
it forward beyond this Administration. It is staffed with 
world-class people. We have worked with the services to embed 
these cultures into the services as well.
    Is this enough? As our overseers, you must judge this. I 
know Mr. Walker has a great deal of passion for this subject, 
as does Mr. Johnson, in terms of ensuring the progress that we 
have made, which we do not argue is complete or adequate. It 
will never be adequate to the mission. Is it sufficient today, 
or are there additional organizational steps to be taken? And I 
am sure today we will have a good discussion about that.
    I thank you for your time, and I look forward to receiving 
your questions.
    Senator Akaka. Thank you very much, Mr. Brinkley. We do 
have questions for you, and right now, Senator Voinovich, I am 
looking forward to two rounds of questions.
    Senator Voinovich. OK.
    Senator Akaka. So let me begin by directing this to 
Comptroller General David Walker. Management structures and 
challenges at all agencies are of concern to me and to many of 
us, not just those at the Department of Homeland Security (DHS) 
and DOD. Can you discuss some of the challenges that you have 
encountered in your review that highlight the need for a Chief 
Management Officer (CMO) in agencies other than DHS and DOD?
    Mr. Walker. Yes. As I said before, I believe that every 
department and agency needs to have a designated CMO or COO. 
But I also believe that when you apply the individual facts and 
circumstances to the criteria that I outlined and that are 
included in the report, a significant majority of the agencies 
can just designate an existing official, for example, the 
Deputy Secretary.
    Now, I think it is important that when the President 
appoints Deputy Secretaries, that person keep in mind that if 
that is going to be the position that is going to be the COO/
CMO position, it is to make sure that the person has the right 
type of background and qualifications in order to be effective 
and in order to be credible in the eyes of not just political 
appointees but career civil servants with regard to that 
categorization.
    I think there are some--and, in fact, I would argue a few--
departments and agencies where the task is so great because of 
the number of high-risk areas, because of the complexity of the 
business transformation process, and because of other factors--
and I guess one factor I would mention with regard to the 
Department of Defense, the Department of Homeland Security, and 
the Office of the Director of National Intelligence--is we are 
currently, ``at war.'' And we are likely to remain so for an 
indefinite period of time. And there are serious management 
challenges that have to be faced in those entities with very 
large stakes and consequences not with regard just to fiscal 
issues but human lives. And in most cases, you will find that 
the Deputy, whoever the Deputy is, has to be the alter ego to 
the Secretary, has to focus on some policy issues, and has some 
ceremonial duties. Deputy Secretary England is out of the 
country today, and I am sure for good reason. But the fact of 
the matter is that there are some situations where the stakes 
are so high, the risks are so great, that we need somebody 
focused.
    My view is it is not necessarily a Deputy Secretary. I 
think the Defense Business Board may have gotten it right--of 
which I sit on as an ex officio member and so does Clay 
Johnson. I think they may have gotten it right with regard to 
the Defense Department by saying a Principal Under Secretary of 
Defense, a Level 2 official reporting to the Deputy Secretary, 
focused on business transformation, with a Deputy CMO who would 
be there to work with them, I think they may have gotten it 
right.
    But those would be my thoughts, Mr. Chairman.
    Senator Akaka. Thank you.
    Mr. Johnson, accountability for management reforms at 
agencies is essential. I believe that it would be one of the 
benefits of having the responsibility for agency management 
placed in the hands of one CMO at a high level in a Federal 
agency. Do you believe that there is currently one person at a 
high level in each agency who is held accountable for 
management and transformation issues?
    Mr. Johnson. Yes, and it varies by agency who that person 
is and at what level. The Department of Education, for 
instance, the person that is in charge of managing the 
Education Department is Secretary Spellings, and everybody 
understands how focused she is on it. There was a person that 
works for her who is not a PAS. He is, actually, I think a SES 
who used to work for Dell Computer, who runs all the management 
piece. He is a representative on the President's Management 
Council, and everybody knows that he is focusing on management 
issues, the PMA part, performance improvement and so forth, on 
behalf of the Secretary. Everybody understands that. He does 
not need a title, he does not need Senate confirmation to have 
the stroke he needs at the Department of Education to get done 
what they need to get done.
    So it is a function of how committed the head of the agency 
is and is there somebody there to do the legwork, to pull the 
information together, to communicate, to make sure that those 
four things that I talked about exist, clear definitions of 
what we are trying to achieve, what our goals are--a clear 
plan, reasonably aggressive plan for getting there, time frames 
and so forth; clear accountability, who is responsible for 
which pieces; and clear reminders, consistent reminders that 
this is important, the Secretary, the head person wants this to 
happen. And Hudson LaForce is the person that does this. So he 
would be designated the Chief Management Officer, I guess, or 
what we would call the Performance Improvement Officer.
    There is somebody like that in every agency. One of the 
things that our Executive order that went out, unrelated to 
this hearing and these other considerations of a second Deputy 
at DOD, is to try to institutionalize a little bit the support 
structure that exists in every agency and try to clarify 
formally from the President what we expect every agency to do, 
what kind of capabilities that support structure is supposed to 
have.
    So we are in the process now of formalizing it, but it 
exists on an informal basis now in every agency.
    Senator Akaka. Thank you.
    Mr. Brinkley, DOD has been working hard at business 
transformation in its Enterprise Transition Plan (ETP). How 
will the designation of the Deputy Secretary as CMO improve the 
implementation of the ETP at the Department?
    Mr. Brinkley. Well, in the near term, as I mentioned, 
Deputy Secretary England has been acting as the CMO, so it is a 
bit of business as usual for the duration of this term. The new 
designation does not change his day-to-day engagement and 
drive, which has really made all the progress to date possible.
    Our intent in that designation is that the next Deputy 
Secretary, there will be an enterprise transition that will be 
published in September 2008 that will include milestones and 
deliverables that will go through 2009 and 2010, and that this 
designation will help clarify that the next Deputy Secretary 
takes ownership. It is a hand-off at that point, and the 
Congress and its oversight will be able to hold the next 
Administration accountable for things that are not political in 
nature but are simply ongoing management improvements. And so I 
believe the designation of CMO is more of a transitional 
support mechanism to ensure that there is not a dropped ball in 
that hand-off, and that was the intent.
    Senator Akaka. Before I turn the questions over to Senator 
Voinovich, may I call on Mr. Walker for any further comment.
    Mr. Walker. I would just like to quickly have a follow-up 
on Mr. Brinkley's comments. I agree with what he said. The 
designation of Gordon England as CMO is business as usual. Now, 
don't take me wrong. I think Gordon England has done a great 
job, and Paul Brinkley has done a commendable job. I think a 
number of people are doing very good work. But it is business 
as usual. It is form over substance.
    Second, Gordon England is gone at noon on January 20, 2009. 
And it would be interesting to know how many of the key players 
in Business Transformation are also gone on January 20 at noon 
in 2009. That is part of the problem.
    We need to recognize the reality that these are very 
challenging and difficult efforts that take years to be able to 
accomplish, and there has got to be a reasonable degree of 
continuity at the right level.
    The Defense Department is one of the most hierarchical 
organizations in the world. If you are in the military, you 
wear your rank on your shoulder or on your sleeve. If you are 
not in the military, your rank is known, whether you are a 
Presidential appointee, Senate confirmation; Presidential 
appointee; career civil servant; and if so, what level you are 
in the Executive Schedule. And, believe me, it makes a 
difference within the Pentagon. I have talked with many people 
that are there today and that have been there before. Rank 
matters.
    And, yes, having the Secretary's support is critically 
important. But then, again, who is the next Secretary going to 
be? And are they going to care about management issues? We can 
go back to several past Secretaries over a number of 
Administrations. Some of them have cared about these issues, 
and some of them have not. And that is how it is likely to be 
in the future.
    Senator Akaka. Before I call on Senator Voinovich, let me 
ask Mr. Johnson for any further comment.
    Mr. Johnson. Two comments in response to Mr. Walker's 
comments. If the Secretary does not care about transforming the 
Department of Defense, it will never happen. I do not care 
whether you have got four deputies or eight deputies. I do not 
care who is the person under the Secretary. If the Secretary 
does not want it to happen, it is not going to happen. That is 
point one.
    Second, what is not gone on January 20, 2009, at noon, is 
the plan, the definition of success, the action steps and time 
frame by which the Defense Department is going to implement 
that plan to achieve the goals, which are designed to be 
accomplished, achieved in some cases a couple years, in some 
cases 10 years, 8 years, 6 years--the plan. And what is also 
not going to be gone on January 20, 2009, is every SES manager 
involved in that transformation effort will have in their 
performance goals for that year, taken through the end of the 
fiscal year, September 30, 2009, their part of the 
implementation of the transformation plan. They will be 
evaluated by their career employees, by their career bosses, as 
to did they do this past year what they said they were going to 
do as part of their effort, the effort to transform the 
Department.
    So it is not true that all accountability, all focus on 
transformation at DOD stops on January 20, 2009. It is just not 
true.
    Senator Akaka. Senator Voinovich.
    Senator Voinovich. I was mayor of Cleveland for 10 years 
and governor of Ohio for 8 years, and we undertook some 
significant systemic changes, and I can tell you it took 5 to 7 
years for us to solve some of our key challenges.
    If you look at GAO's high-risk list, wouldn't you conclude, 
particularly at the Defense Department, so many issues on the 
high-risk list that someone ought to look at the way the 
Department is being managed to determine how the changes 
necessary are going to get made?
    Mr. Brinkley, how long have you been with the Defense 
Department?
    Mr. Brinkley. Since August 2004.
    Senator Voinovich. August 2004, and you will be one of 
those that will be gone on June 20?
    Mr. Brinkley. January 20, 2009. I believe noon, yes.
    Senator Voinovich. It would seem to me that the Defense 
Department would want to do everything in their power to make 
sure that your good work and Ken Krieg's good work continue and 
that the baton is not dropped during the transition. And Mr. 
Walker is right, hopefully Congress will pay more attention to 
the quality of the individuals nominated for key positions. But 
what I have observed is that there is sort of a revolving door, 
and if you would compare the way you run the Defense Department 
to IBM or some other major corporation, I think you would have 
to surmise that we are not designed to get the job done. That 
is why I think that having someone that has the qualities of 
Gordon England that would be signed off by both Republicans and 
Democrats and have a term. They would know they would have a 
term which would give them some confidence that they will have 
enough time to get the job done, which is real important when 
you hire someone. And you are going to need a pretty special 
person because they are probably giving up a job in the private 
sector that is paying them twice what they would get if they 
came to work for the Defense Department, someone that would 
command the respect of people who are in the civil service 
there.
    I fail to understand why you do not think it is good policy 
to have someone that would be in that position to guarantee 
that the work that you and Ken Krieg have done is carried out.
    Mr. Brinkley. Thank you, sir. Well, first of all, to your 
point, myself, my team, no one feels more strongly about making 
sure that the things we have done are sustainable. It has been 
an underpinning of every decision we have made in terms of how 
we have structured reports, how we have structured management 
processes. It always is about how can we sustain given the 
constraints we operate with in government and given that, 
unlike the IBMs and the General Electrics and the companies of 
the world, we undergo no less than every 4 years a major 
turnover in many tiers of the leadership of the organization. 
That is a constraint that creates a huge amount of challenge 
for any Federal entity.
    And so the steps we have taken have been in many respects 
to try to create exactly what you have described. They are 
necessary steps. They were things that had we not done and a 
CMO or someone, a new appointee, had come in, I believe that 
person would have done as one of their first undertakings.
    The question about structure, there are many principled 
arguments about why creating a new structure, codifying it 
legislatively in this particular arena can be disadvantageous 
to the Department of Defense. I will only speak about the 
Department of Defense. They come on several fronts. The first 
is just the classic Executive Branch sense that we need the 
flexibility to structure ourselves according to the 
designations of the Cabinet Secretaries who are put in charge, 
and anything you do to create more structure legislatively 
removes flexibility in terms of their ability to organize. So 
there is an Executive Branch viewpoint that takes hold.
    The second is a managerial one, one that I tend to 
understand, and sometimes I swing back and forth in my 
agreement with. Business management, the best, most effective 
change you can drive is when the people who live with the 
operational outcome are very actively involved in the work. In 
the case of the Department of Defense, we have an Acquisition, 
Technology, and Logistics organization, Ken Krieg; we have a 
Finance organization, Under Secretary Jonas; a Personnel and 
Readiness organization, Under Secretary Chu. Those individuals, 
active, ongoing, sense of ownership, sense of responsibility 
for driving change in their space is extremely important to 
them. They feel that it is a part of their day-to-day 
operations. So one of the biggest concerns we have, which I 
think is somewhat legitimate among those organizations, is 
another management official who suddenly is responsible for 
change, strictly focusing on change, removes some of their 
sense of accountability for driving things. There is a tension, 
a healthy tension, between operational leaders driving change 
versus some central organization, headquarters function driving 
change. That is another aspect to this.
    So when you see the debate, it is not a resistance or a 
lack of understanding that we want to see our progress 
sustained. It is a debate about whether the steps that have 
been taken are sufficient. Are there additional steps that have 
to be taken?
    I will make my last comment on the high-risk list. I think 
you can divide the high-risk list into two categories: Things 
that we can justifiably look at and say these should be off the 
high-risk list at some point in the near future because we need 
to aggressively address the management shortcomings that place 
them here. Then there are some that I can tell you now I would 
be concerned as an American citizen if they ever come off the 
high-risk list. Supply chain management is going to evolve at a 
pace that will always outstrip government. We will never see 
supply chain management in government, especially in the war-
fighting arena, match what a world-class logistics company can 
do. There is a different set of objectives, a different set of 
performance measures, and a different pace. It always should be 
seen as high-risk. We always need to maintain a high degree of 
discipline on this.
    Weapons systems acquisition, business systems 
modernization, financial management--these are things that the 
pace of technology change is always going to outstrip 
government. Keeping a full court press, to use a sports 
metaphor, on these areas I think is something that is going to 
happen in an ongoing way. And so thinking of them this way I 
think is important as well.
    Senator Voinovich. I would like to ask Mr. Walker to 
comment about what Mr. Brinkley just said. Is the Federal 
Government organized to take on our 21 Century challenges? Is 
the Senate organized to take on the challenges of the 21 
Century?
    Obviously, the American people do not think that those of 
us that are in the Legislative Branch are doing a very good 
job. Our numbers are as low as they have ever been. So, mea 
culpa, we have to look at our own operations ourselves. But at 
the same time, we have an obligation to continue to push for 
good management in the Executive Branch.
    Mr. Walker. First, I agree with Mr. Johnson that if you do 
not have a Secretary who is supportive of the transformation 
effort, you are not going to be successful. They may or may not 
have much interest in it. They may or may not have as much 
background in it. They may or may not spend much time on it. 
But they have to at least be supportive, and I think that is 
important. So I agree with that.
    Second, I believe that every person that Paul Brinkley 
mentioned by name is a Presidential appointee who will be gone 
at noon on January 20, 2009.
    Third, this Administration has a plan, and it should be 
commended for that plan. There is a lot of good work that Mr. 
Brinkley and others have done, Secretary England has done; they 
should be commended for that. But it is this Administration's 
plan, and it is yet to be determined whether and to what extent 
the next Administration will accept that plan. Every 
Administration has had their management initiatives. The last 
Administration has Reinventing Government under the Vice 
President. That was not embraced. Then the Administration 
changed. Each Administration came up with their own approach, 
and this Administration came up with the President's Management 
Agenda, and I think it is a very good approach. It has a lot of 
conceptual merit, and I think it has made a lot of progress.
    So one cannot presume that the plan is going to be embraced 
by the next set of players because you have a whole change in 
leadership. And, yes, there are incredibly capable career civil 
servants in the Defense Department and every agency of 
government, but they also know it is their job to take the lead 
from the political appointees. And we do not know who they are 
going to be. We do not know what background we are going to 
have. We do not know what interests they are going to have. We 
do not know how long it is going to take them to get appointed. 
And we do not know how long they are going to stay, because I 
have been a Presidential appointee for President Ronald Reagan, 
President George Herbert Walker Bush, and President William 
Jefferson Clinton, and political appointees are temporary help. 
They are good people, but they are temporary help.
    Senator Voinovich. Mr. Johnson.
    Mr. Johnson. First of all, let me respond to a couple of 
comments. Senator Voinovich, you were talking to Mr. Brinkley 
about why wouldn't you want a second Deputy, a term position, 
whatever, who could guarantee this and that and so forth. No 
one person can guarantee anything, so I think it is unrealistic 
to expect that the silver bullet is this person, and then all 
of a sudden DOD starts working like a Swiss watch.
    You referred several times to that it has not gotten done 
yet. We are talking about this, but it has not gotten done yet. 
Well, let me say what has gotten done. There is for the first 
time ever, for each one of the DOD high-risk list items, a 
clear definition of success, a clean plan for accomplishing it, 
clear definitions of accountability, and it is being made 
clearer and more emphatic than ever before how important it is 
that we get this done.
    GAO has signed off on the plan, on the definitions of 
success. GAO has signed off on the action plans and the 
reasonable levels of aggressiveness for accomplishing them. 
Your staff has been involved in this. You have agreed, your 
staff has agreed on the definitions of success for these items 
and the time frame in which they are to be accomplished.
    So I do not know how much better those plans would be with 
the second term deputy than they are now. But that is new 
stuff. That has not existed before. It is because the current 
leadership, the current structure at DOD is committed to make 
it happen. The current ``M'' in OMB is committed to make it 
happen. And we have worked together to do so, to collaborate on 
this.
    You have talked about where there is no argument, there is 
no support for continuing to do it the way we have done it 
before. We are not doing it the way we have done it before. The 
organization that Paul and Beth McGrath and their team have at 
DOD has not existed before. The attention being paid to this at 
DOD has not existed before. I do not know what previous 
Presidents did within the DOD or within the ``M'' part of OMB, 
but they did not do a very good job of it; otherwise, we would 
not be working on what we are working on now. And I would 
suggest it was not--it is not because there was or was not--
there was not a second deputy at DOD. I would suggest to you 
that nobody was ever held accountable. Congress never held DOD 
accountable, the ``M'' part of OMB never held anybody 
accountable for actually reducing the risk in these areas, for 
actually causing programs to be more effective.
    There are lots of mechanisms that exist to increase the 
level of accountability for addressing all these issues that we 
want addressed. A second deputy is not one of those significant 
pieces of the pie, slices of the pie that can ensure 
accountability. It has got to come from the head of the agency, 
and it has to come from Congress.
    You asked me one time, on January 20, is it going to be 
clear to you what DOD is working on, all agencies? And so when 
the next bunch comes in here, are you going to have to start 
all over with them, or are they going to have a clear idea 
about what is in place and what the career staff is being held 
accountable for accomplishing? And I told you then--which is 
still true--there will be a clear definition of what all the 
career employees are working on at DOD to transform the Defense 
Department. And they will be committed to continue to work on 
those things for the 4 months, 6 months, 8 months before their 
political leaders are in place.
    Momentum will not stop at noon on January 20. Effort will 
continue to take place. The new Administration can come in. 
They inherit that plan. They can change it. They can tell you 
they do not want to transform DOD. I bet you you do not let 
them. They can tell you they want to go slower than the current 
plan calls for. I bet you you do not let them. They have that 
option, but there is--and maybe they come in and they say, ``I 
have got an even better plan. We should do this faster than 
that.'' And I bet you you let them do that. But having a person 
there that says this is the plan, this is the only plan, and 
this is as good as this plan can get, to expect that that 
second deputy is going to be the insurance, the guarantee that 
the plan is absolutely the best that it can ever be, is 
unrealistic, I think, an unrealistic expectation for them.
    Senator Voinovich. I am sure there are other people that 
sat in your shoes, and Mr. Brinkley's, and said the same thing 
8 or 10 years ago.
    Mr. Johnson. Ask GAO if the plans that exist now are to 
their satisfaction for the transformation of DOD.
    Senator Voinovich. Mr. Chairman, from my perspective, I 
would feel a lot more comfortable if I knew there was someone 
at DOD and DHS that would remain in place during and after the 
transition. We are not looking for that. We are looking for 
someone that can say to the team, ``You guys have done a great 
job. I am here. We are going to work together. We are going to 
keep going on this thing.'' And as the new people come in, talk 
to them about it, get their points of view about things. Thank 
you, Mr. Chairman.
    Senator Akaka. You are very welcome.
    Mr. Johnson, as the leader of President Bush's transition 
team, you saw firsthand the difficulties of transitioning to a 
new Administration. Now, having a senior-level official that 
could overlap between Administrations by serving in a term 
appointment could be very helpful to the continuity of agency 
operations during these sometimes turbulent times.
    What harm do you see in establishing a term appointment for 
a CMO at a senior-level position?
    Mr. Johnson. That is a very good question. In other words, 
instead of why, why not? I can think of two things: One, what 
Paul Brinkley was talking about, which is you have Chief 
Financial Officer, Tina Jonas; you have the Chief Personnel 
person, David Chu, you have the Acquisition, Technology 
position, that was Ken Krieg; and I do not know the current 
person in that position. They have two bosses. They have the 
Secretary--the Deputy Secretary in terms of operational 
responsibility, and then they have another boss over here under 
the transformation responsibilities. And what if there is a 
conflict? What if they have a conflicting direction from those 
two people? How is that conflict resolved? It is lack of 
clarity, which is problematic, significantly problematic, I 
believe. If David Chu is trying to reform--if Tina Jonas is 
trying to reform--do management of the financials of the 
Defense Department, and at the same time she is trying to work 
out budget matters and funding for the war and so forth and so 
on, what is she responsible for, what is this management person 
over here responsible for? It is lack of clarity, and lack of 
clarity is death in a large organization--in any size 
organization, but the larger it is, the more death-like it is.
    The second thing is that when you put a term position on 
somebody, it is like putting a term position on an Inspector 
General. I think you lessen the level of accountability, 
because if they are not performing up to speed and they cannot 
be removed except for committing a crime, that person is not 
held as accountable as the person that serves at the will of 
whomever. And we want the Management Officer in an agency to be 
really accountable.
    So those are the two reasons, the two problems that I think 
exist with the structure that is being proposed. I think the 
greater of those two is the one that Mr. Brinkley articulated 
well.
    Senator Akaka. Thank you.
    Mr. Walker, the provisions in the 9/11 Commission bill and 
the defense authorization conference report establishing CMOs 
at DHS and DOD do not require a term appointment. You discussed 
the importance of this issue at length in your testimony. What 
can agencies do to ensure that a CMO is still effective even if 
they are not in place for a term appointment of 5 to 7 years?
    Mr. Walker. Well, first, you have to focus on the 
qualifications for the person. You have to make sure that you 
are picking the right type of person for the job.
    Second, clearly you need to have a plan, but authoritative 
literature for change management and transformation says that 
90 percent of success or failure is implementation. It is not 
having a plan. It is implementation of the plan, and that 
involves people, process, technology, and environment, among 
other things.
    So the person has to be the right kind of person with the 
right kind of skills and knowledge. There needs to be a plan. 
There need to be accountability mechanisms. And I would argue 
that one of those accountability mechanisms ought to be a 
performance contract. The whole purpose of this transformation 
leader is to improve performance, and so I think it is 
critically important that they and others have some type of 
performance contract.
    Let me mention one last thing on the term, Mr. Chairman. 
There are ways to deal with concerns that I have heard about 
the term appointment. It is one thing if you say you have a 5- 
or 7-year term. It is another thing to say that you cannot be 
removed except for certain reasons. Now, there are reasons why 
I think restrictions on removal from accountability slots make 
sense. That means the Comptroller General slot, which I have, 
or Inspector Generals, because a lot of people do not like 
accountability and you are supposed to be independent.
    So I think one could make an argument that there might be 
some grounds that would have to exist for removal for those 
types of slots. But for this slot I feel differently. For this 
slot, it is a management operational slot, and one could 
provide the ability to remove, for a variety of reasons--non-
performance, incompatibility. The reason that you need a term 
is so that hopefully the person is making a commitment when 
they come in such that if everything works out okay, they can 
expect to stay that length of time, but possibly to be able to 
say that if for some reason they are not performing or for some 
reason there is incompatibility or some reason like that, just 
have an advanced notification to the Congress to say that the 
Secretary intends to terminate this person for the following 
reason. Just advance notification.
    I think that could end up bridging one of the concerns that 
we have heard expressed about a term appointment.
    Senator Akaka. Mr. Brinkley, I have a lot of respect for 
Deputy Secretary England. I really do. No question he is a 
capable leader, and I am glad to see that DOD named him the 
Department's CMO. His appointment brings accountability and 
priority of management, I believe, to the right level.
    However, Comptroller General Walker has testified that a 
second CMO position is needed because the Deputy Secretary 
already has too many other demands to focus the necessary 
attention on business transformation.
    How would you respond to that concern, Mr. Brinkley?
    Mr. Brinkley. Two thoughts. First, the empowerment 
present--and Mr. Walker outlined it earlier. The Department of 
Defense is a hierarchical organization. It is exceedingly 
attuned to where power resides and where authority resides, 
both in the civilian and in the uniformed military sides of the 
Department. And so it is the fact that the Deputy Secretary has 
such a weight of responsibility that gives him the authority 
people look to. If something serious is happening, the Deputy 
Secretary is behind it. Separating, creating a separate 
function, particularly a second deputy, I believe would cripple 
that area, management reform, in terms of having it have the 
perceived weight.
    The Department's mission is to secure the Nation. One of 
the things we have tried to embed in the way the Department 
thinks and we see firsthand now in Iraq is the business 
operations of the Department service and support, and must 
service and support seamlessly, the war-fighting mission of the 
Department.
    Three years ago, when I joined the Department, it did not 
think that way. It was very hard to get people focused on the 
war-fighting mission of the Department to talk about the 
business mission of the Department. They were divided in 
separate mission areas. And you could see the most important, 
most powerful people in the Department focused their energy, 
necessarily, on the war-fighting mission of the Department. 
That is where the primary mission of the Department exists.
    Having this awareness, having the two be seen as uniform, 
integrated, economic effects that we are driving in Iraq today 
as a result of leveraging our business operations in support of 
troops on the ground, these are things that are causing these 
two mission areas to become seamlessly integrated. The concern 
is that if you create a second deputy, that implicit power 
structure that everyone looks to, they look above, where does 
power reside, where is the significance in terms of 
decisionmaking present, that understanding would be at least 
temporarily lost, perhaps could be re-created as management 
reform and a powerful individual were placed in the position. 
So that would be the concern on a second deputy.
    Another thought I would like to reflect on is regarding the 
point the Comptroller General made a moment ago, which is about 
a termed appointment or not. Honestly, I think the only 
argument that resonates with everyone that we all feel and I 
have shared with you is how do we ensure we sustain beyond. If 
the decisions about Chief Management Officers or Deputy Chief 
Management--whatever the decision is--does not include a 
structure that ensures a carryover between Administrations, 
then I think it loses, in my opinion, the only meritorious 
argument that exists. It is just creating another position 
inside the Department of Defense that is going to have to be 
staffed. That is my personal opinion. It loses a lot of weight 
and merit. That is my only comment.
    Senator Akaka. Yes, Mr. Walker?
    Mr. Walker. I think what Paul Brinkley is saying is the 
term may be one of the things that is necessary if you are 
going to have something. But, I do not know, he can speak for 
himself on that. Continuity is important, no matter what level 
the position is or what type of position.
    I have actually had dual deputies before. This is not some 
theoretical construct from my standpoint. I used to be head of 
the Pension Benefit Guaranty Corporation. I used to be head of 
the Employee Benefits Security Administration, and I had two 
deputies. One of them focused on policy and external matters. 
One of them focused on operations, enforcement, and internal 
matters. And it worked great, and there was not any confusion 
about who was responsible for what.
    In one case, the deputy that was focused on operational and 
internal matters was a political appointee; in one case, they 
were a career official. In both cases, they had the right type 
of professional qualifications in order to be capable and 
credible, if you will.
    Now, one of the concerns that I have, Mr. Chairman--and I 
will just leave it at this--is I think this has been overly 
focused on the Department of Defense. And as I said before--and 
I do not mean by you. I am just talking about the discussion 
that we have had. I have already acknowledged that I think that 
the Defense Business Board probably had it right. Don't create 
another deputy. Create a Principal Under Secretary for 
Management and look at some of that, because just having dual 
deputies can create some confusion.
    At the same point in time, I think there is a bigger issue 
here that I would just like to put on the table for you to 
think about and we can cover later. I think there are three 
kinds of Presidential appointee positions in government right 
now, and we need to think about treating them differently.
    The first is a policy position, which clearly the President 
ought to have discretion who they appoint, the Senate might 
confirm, but they serve at the pleasure of the President 
because they are executing the President's policy.
    The second is an operational management position where you 
want to pick somebody who is primarily based on their 
professional competence. It has got to be politically 
acceptable. It has got to go through a process. But you are 
picking him primarily in professional competence, and in 
certain circumstances it may make sense for them to have a term 
appointment, but that is the exception to the rule.
    And the third is adjudication and oversight--judges, 
Inspectors General, the Comptroller General of the United 
States, etc., where you want to pick primarily for professional 
competence but you also have to make sure that you have 
independence.
    The thing I would put on the table for a separate 
discussion at a later date is to take a look at that, because 
we need to be focusing more than just the Department of 
Defense. We need to be focusing broader and not just on the CMO 
but a range of basic management positions that exist that 
frankly are not likely to get filled very quickly in the next 
Administration.
    Senator Akaka. Well, I want to thank you very much for your 
comments and your statements. I know we can go on and discuss 
the subject today, but improving the management of human 
capital, financial management, and business transformation 
needs to be a higher priority throughout the Federal 
Government. Establishing CMOs may be a part of the answer. We 
may need to look at legislation that would establish CMOs at 
each Federal agency, not just DOD and DHS, and bring greater 
accountability and focus to strategic management issues. It 
might also be helpful to have a mechanism in place to allow 
CMOs to share best practices and work together through a 
coordinated effort by OMB to ensure effective management at 
Federal agencies and to set maybe a policy on this.
    So these are some things to think about, and as you say, 
Mr. Walker, at another time we can further discuss these. But I 
want to thank all of our witnesses so much for their testimony 
and their answers. We may have additional questions for the 
record, and I look forward to working with all of you on this 
important issue.
    I want to wish all of you happy holidays, and I look 
forward to seeing you again next year.
    This hearing is adjourned.
    [Whereupon, at 11:38 a.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T0509.000

1[GRAPHIC] [TIFF OMITTED] T0509.000

2[GRAPHIC] [TIFF OMITTED] T0509.000

3[GRAPHIC] [TIFF OMITTED] T0509.000

4[GRAPHIC] [TIFF OMITTED] T0509.000

5[GRAPHIC] [TIFF OMITTED] T0509.000

6[GRAPHIC] [TIFF OMITTED] T0509.000

7[GRAPHIC] [TIFF OMITTED] T0509.000

8[GRAPHIC] [TIFF OMITTED] T0509.000

9[GRAPHIC] [TIFF OMITTED] T0509.001

0[GRAPHIC] [TIFF OMITTED] T0509.001

1[GRAPHIC] [TIFF OMITTED] T0509.001

2[GRAPHIC] [TIFF OMITTED] T0509.001

3[GRAPHIC] [TIFF OMITTED] T0509.001

4[GRAPHIC] [TIFF OMITTED] T0509.001

5[GRAPHIC] [TIFF OMITTED] T0509.001

6[GRAPHIC] [TIFF OMITTED] T0509.001

7[GRAPHIC] [TIFF OMITTED] T0509.001

8[GRAPHIC] [TIFF OMITTED] T0509.001

9[GRAPHIC] [TIFF OMITTED] T0509.002

0[GRAPHIC] [TIFF OMITTED] T0509.002

1[GRAPHIC] [TIFF OMITTED] T0509.002

2[GRAPHIC] [TIFF OMITTED] T0509.002

3[GRAPHIC] [TIFF OMITTED] T0509.002

4[GRAPHIC] [TIFF OMITTED] T0509.002

5[GRAPHIC] [TIFF OMITTED] T0509.002

6[GRAPHIC] [TIFF OMITTED] T0509.002

7[GRAPHIC] [TIFF OMITTED] T0509.002

8[GRAPHIC] [TIFF OMITTED] T0509.002

9[GRAPHIC] [TIFF OMITTED] T0509.003

0[GRAPHIC] [TIFF OMITTED] T0509.003

1[GRAPHIC] [TIFF OMITTED] T0509.003

2[GRAPHIC] [TIFF OMITTED] T0509.003

3[GRAPHIC] [TIFF OMITTED] T0509.003

4[GRAPHIC] [TIFF OMITTED] T0509.003

5[GRAPHIC] [TIFF OMITTED] T0509.036

[GRAPHIC] [TIFF OMITTED] T0509.037

[GRAPHIC] [TIFF OMITTED] T0509.038

[GRAPHIC] [TIFF OMITTED] T0509.039

[GRAPHIC] [TIFF OMITTED] T0509.040

[GRAPHIC] [TIFF OMITTED] T0509.041

[GRAPHIC] [TIFF OMITTED] T0509.042

[GRAPHIC] [TIFF OMITTED] T0509.043

[GRAPHIC] [TIFF OMITTED] T0509.044

[GRAPHIC] [TIFF OMITTED] T0509.045

[GRAPHIC] [TIFF OMITTED] T0509.046

[GRAPHIC] [TIFF OMITTED] T0509.047

[GRAPHIC] [TIFF OMITTED] T0509.048

[GRAPHIC] [TIFF OMITTED] T0509.049

[GRAPHIC] [TIFF OMITTED] T0509.050

[GRAPHIC] [TIFF OMITTED] T0509.051

[GRAPHIC] [TIFF OMITTED] T0509.052

[GRAPHIC] [TIFF OMITTED] T0509.053

[GRAPHIC] [TIFF OMITTED] T0509.054

[GRAPHIC] [TIFF OMITTED] T0509.055

[GRAPHIC] [TIFF OMITTED] T0509.056

[GRAPHIC] [TIFF OMITTED] T0509.057

[GRAPHIC] [TIFF OMITTED] T0509.058

[GRAPHIC] [TIFF OMITTED] T0509.059

[GRAPHIC] [TIFF OMITTED] T0509.060

[GRAPHIC] [TIFF OMITTED] T0509.061

[GRAPHIC] [TIFF OMITTED] T0509.062

[GRAPHIC] [TIFF OMITTED] T0509.063

[GRAPHIC] [TIFF OMITTED] T0509.064

[GRAPHIC] [TIFF OMITTED] T0509.065

[GRAPHIC] [TIFF OMITTED] T0509.066

[GRAPHIC] [TIFF OMITTED] T0509.067

[GRAPHIC] [TIFF OMITTED] T0509.068

[GRAPHIC] [TIFF OMITTED] T0509.069

[GRAPHIC] [TIFF OMITTED] T0509.070

[GRAPHIC] [TIFF OMITTED] T0509.071

[GRAPHIC] [TIFF OMITTED] T0509.072

[GRAPHIC] [TIFF OMITTED] T0509.073

[GRAPHIC] [TIFF OMITTED] T0509.074

[GRAPHIC] [TIFF OMITTED] T0509.075

[GRAPHIC] [TIFF OMITTED] T0509.076

[GRAPHIC] [TIFF OMITTED] T0509.077

[GRAPHIC] [TIFF OMITTED] T0509.078

[GRAPHIC] [TIFF OMITTED] T0509.079

[GRAPHIC] [TIFF OMITTED] T0509.080

[GRAPHIC] [TIFF OMITTED] T0509.081

[GRAPHIC] [TIFF OMITTED] T0509.082

[GRAPHIC] [TIFF OMITTED] T0509.083

[GRAPHIC] [TIFF OMITTED] T0509.084

[GRAPHIC] [TIFF OMITTED] T0509.085

[GRAPHIC] [TIFF OMITTED] T0509.086

[GRAPHIC] [TIFF OMITTED] T0509.087

[GRAPHIC] [TIFF OMITTED] T0509.088

[GRAPHIC] [TIFF OMITTED] T0509.089

[GRAPHIC] [TIFF OMITTED] T0509.090

[GRAPHIC] [TIFF OMITTED] T0509.091

[GRAPHIC] [TIFF OMITTED] T0509.092

                                 <all>

</pre></body></html>
